Memorandum from the Office of the Inspector General



October 13, 2010

John J. McCormick, Jr., LP 3K-C
Michael T. Scott, LP 3D-C

FINAL REPORT – INSPECTION 2009-12651 – REVIEW OF TVA'S DAM SAFETY
PROGRAM



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Heather R. Kulisek, Auditor, at (423) 785-4815 or
Greg R. Stinson, Acting Director, Inspections, at (865) 633-7367. We appreciate the
courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

HRK:NLR
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12651
             Tennessee Valley Authority
             Office of the Inspector General
 

Inspection Report
     



                                                 

                                                 

 

 

 

 
REVIEW OF TVA’S
 


DAM SAFETY
PROGRAM
 




 

 
 
 

 
                        Inspection 2009-12651
                             October 13, 2010
Office of the Inspector General                                         Inspection Report




ACRONYMS AND ABBREVIATIONS

DS&I                       Data Systems and Instrumentation
EAPs                       Environmental Protection Plans
FEMA                       Federal Emergency Management Agency
FEMA 64                    Emergency Action Planning for Dam
Owners
FEMA 65                    Earthquake Analyses and Design of
Dams
FEMA 93                    Federal Guidelines for Dam Safety
HBOC Hydro                        Board of Consultants
Kingston Report            Inspection Report 2008-12283-02, Review of Kingston Fossil
                           Plant Ash Spill Root Cause Study and Observations about
                           Ash Management
MDE                        Maximum Design Earthquake
NDSP                       National Dam Safety Program
O&M                        Operations and Maintenance
OIG                        Office of the Inspector General
PFMA                       Potential Failure Mode Analysis
PMF                        Probable Maximum Flood
REs Respons                         ible Engineers
RO River                          Operations
TVA                        Tennessee Valley Authority
USACE                      U.S. Army Corps of Engineers




Inspection 2009-12651
Office of the Inspector General                                                                   Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS AND RECOMMENDATIONS ................................................... 4
   IDENTIFICATION AND MITIGATION OF RISKS ............................................. 4
      Assessments of Dam Safety's Approach to Risk Management ................... 5
      Dam Safety's Risk Mitigation Activities ........................................................ 5
      Opportunities for Improvement .................................................................... 8

   COMPLIANCE WITH TVA POLICIES AND PROCEDURES AND
   APPLICABLE LAWS AND REGULATIONS ..................................................... 9
      Establish a Dam Safety Officer and Appropriate Staff .............................. 10
     Maintain an Updated Inventory of Dams .................................................. 10
      Document Design Criteria and Construction Activities ............................. 10
      Prepare O&M Instructions and Document Activities ................................. 10
     Maintain a Training and Awareness Program ........................................... 11
     Prepare and Maintain EAPs for Each Dam .............................................. 11
      Establish a Program of Periodic Inspections and Evaluation of Dams ..... 12
     Monitor and Evaluate the Performance of Each Dam and Appurtenant
      Structure and Provide Remedial Construction as Necessary .................. 12

   COMPREHENSIVE DAM SAFETY PROGRAM .............................................12
     Inspection Program ................................................................................... 13
     Instrumentation Program ........................................................................... 14
     O&M Procedures ....................................................................................... 15
     EAPs ......................................................................................................... 16
         EAP Development/Content .................................................................. 16
         EAP Integration ................................................................................... 17

   SYSTEMIC ISSUES FOUND IN OIG REVIEWS............................................. 17

   SUMMARY OF OIG AND MARSHALL MILLER RECOMMENDATIONS ....... 19

APPENDICES
A. MARSHALL MILLER TEAM QUALIFICATIONS & EXPERIENCE SUMMARY

B. MEMORANDUM DATED SEPTEMBER 23, 2010, FROM JOHN J.
   MCCORMICK, JR., AND MICHAEL T. SCOTT TO ROBERT E. MARTIN

Inspection 2009-12651
               Inspection 2009-12651 -- Review of TVA's Dam Safety
               Program
                                  EXECUTIVE SUMMARY

  Why the OIG Did This Review

      This review was the result of broad interest surrounding the safety and
      condition of Tennessee Valley Authority (TVA) dams after the ash spill at
      Kingston Fossil Plant.

      The objectives of this review were to determine if TVA's Dam Safety
      Program (1) identifies and adequately addresses significant risks, (2) is in
      compliance with TVA policies and procedures and applicable laws and
      regulations, and (3) encompasses all the aspects of a comprehensive dam
      safety program.

  What the OIG Found

      Our review found that TVA (1) is taking steps to identify and mitigate its
      risks, (2) is adhering to the Federal Guidelines for Dam Safety with a few
      exceptions, and (3) has a comprehensive dam safety program.

           Identification and Mitigation of Risks - TVA is currently taking
            strides to improve its risk management including moving from being
            reactive to proactive by mitigating and anticipating risks. According to
            TVA's Hydro Board of Consultants, it would be very difficult for
            something to happen that would not be detected in time to mitigate
            disaster with the monitoring TVA has in place. In addition, with the
            recommendations made by TVA's independent consultants, TVA is
            implementing new analysis that will assist with the identification and
            mitigation of risk. However, based on interviews with TVA plant
            personnel, clearer lines of responsibility, decreased lag time from
            inspection to report, rotation of inspectors, and Dam Safety
            personnel's presence during project work would enhance the
            identification and mitigation of Dam Safety risks.
           Compliance With TVA Policies and Procedures and Applicable
            Laws and Regulations - Our review found that TVA's policy is to
            follow the Federal Guidelines for dam safety, although not required to
            under federal law. TVA is adhering to the Federal Guidelines with the
            exception of certain aspects of the Operations and Maintenance
            (O&M) Manuals, Training and Awareness Program, and Emergency
            Action Plans (EAPs). Specifically, (1) O&M Manuals are not updated
            on a regular basis, (2) periodic evaluation is not being performed of

Inspection 2009-12651                                                          Page i
Office of the Inspector General                                          Inspection Report


              the site personnel conducting monthly inspections, and (3) the EAPs
              are lacking a process for terminating an emergency, a designated
              EAP Coordinator, and information related to unmanned dams. These
              deficiencies could hinder risk identification and mitigation activities.
            Comprehensive Dam Safety Program - The TVA Office of the
             Inspector General (OIG) contracted with Marshall Miller & Associates,
             Inc., to conduct a peer review of TVA's Dam Safety Program. Based
             on their review, it appears that while TVA has a comprehensive dam
             safety program in place, there are ways the program could be
             strengthened in the Inspection Program, Instrumentation Program,
             Dam Safety O&M Program, and Emergency Action Planning.
            Systemic Issues Found in OIG Reviews - There are several issues
             that were identified in Inspection Report 2008-12283-02 Review of
             Kingston Fossil Plant Ash Spill Root Cause Study and Observations
             about Ash Management that have also been noted during the course
             of this review. As noted in various places in this report, those issues
             relate to organization, accountability, and resources.

  What the OIG and Marshall Miller Recommends

      In conjunction with Marshall Miller, we recommend the Senior Vice
      President, River Operations, consider revisions to the:

          Inspection Program related to the (1) incorporation of the
           Instrumentation Group and the Emergency Preparedness function in
           the Dam Safety Group, (2) involvement of the hydro production support
           managers in site activities and inspection results, (3) scope of the Dam
           Safety Awareness Training, and (4) periodic evaluation and rotation of
           monthly inspectors.
          Instrumentation Program related to:
             Increased staff for support of safety, workload management, and
              emergency response.
             Increased funding in support of (a) instrumentation replacement and
              installation, (b) transition to automated data acquisition, and
              (c) communication improvements.
             Strengthening of relationships between dam site personnel and the
              Data Systems and Instrumentation Group.
          O&M Program related to (1) increased staff and budget to facilitate the
            prompt handling of needed maintenance procedures, (2) increased
            security measures, and (3) update of O&M Manuals.

Inspection 2009-12651                                                              Page ii
Office of the Inspector General                                            Inspection Report


          Emergency Action Planning related to the (1) expansion of staff
           consistent with the increased scope of Dam Safety activities,
           (2) integration of EAPs in the overall Dam Safety Program, (3) tailoring
           of EAPs to individual sites and inclusion of additional information,
           (4) frequency of emergency exercises, (5) update of the decision-
           making chart included in the EAPs, and (6) periodic reconnaissance of
           downstream inundation areas.
         In addition, the potential impact and risk of the parallel issues identified in
         this report should be thoroughly examined as part of TVA's effort to
         change the company's culture.
         The Senior Vice President of River Operations, in conjunction with the
         Dam Safety Officer, provided comments on this report. Management
         agreed with our recommendations and plans to take corrective actions.
         We agree with management's planned actions to address our
         recommendations. Management's complete substantive comments are
         included in Appendix B of this report. TVA management also provided
         some administrative and clarifying comments for our consideration.
         These technical comments were reviewed and incorporated as
         appropriate.




Inspection 2009-12651                                                               Page iii
Office of the Inspector General                                                           Inspection Report


BACKGROUND
Under the Tennessee Valley Authority Act of 1933, as amended, the Tennessee
Valley Authority was authorized to construct, operate, and maintain dams in the
Tennessee River basin. The Act authorized TVA to operate its dams and
reservoirs for the unified development and regulation of hydroelectric power,
flood control, river navigation, and public recreation. According to the National
Inventory of Dams, TVA's dam inventory in 2009 included 49 main dams and
35 dikes and saddle dams.1

For 30 years, the federal government has been working to protect Americans
from dam failure through the National Dam Safety Program (NDSP). The NDSP,
which is lead by the Federal Emergency Management Agency (FEMA), is a
partnership of the states, federal agencies, and other stakeholders to encourage
individual and community responsibility for dam safety. The Federal Guidelines
for Dam Safety encourage strict safety standards be applied (1) in the practices
and procedures employed by federal agencies and (2) by dam owners regulated
by the federal agencies. The Federal Guidelines address management practices
and procedures, but do not attempt to establish technical standards. According
to the Catalog of FEMA Dam Safety Resources, the Federal Guidelines provide
the most complete and authoritative statement available of the desired
management practices for promoting dam safety and the welfare of the public.
They were issued in June 1979 and last reprinted in 2004.

TVA's Dam Safety Program was formalized in 1982. TVA's Dam Safety
Organization is responsible for ensuring that TVA's Dam Safety Program meets
the Federal Guidelines. TVA's Dam Safety Program consists of modifications to
ensure the structural integrity and safe operation of TVA's 49 dams and
appurtenant structures, instrumentation to monitor dam performance, periodic
inspections, maintenance and repairs, and emergency preparedness. Dam
Safety is also responsible for saddle dams, dikes, and impoundments in the TVA
system.2

In 2008, TVA experienced the Kingston Fossil Plant Ash Spill which had a
significant operational and environmental impact. As a proactive measure, TVA's
River Operations (RO) contracted with independent consultants to exercise "an
abundance of caution" and to provide appropriate reassurance to all TVA's
stakeholders regarding safety and stability. Specifically, TVA's purpose in
commissioning this study was to obtain independent verification that TVA has a
sound Dam Safety Inspection and Instrumentation Monitoring Program and that
this program meets the intent of the Federal Guidelines. The consultants
concluded that TVA's Dam Safety Program is thorough and generally
comparable to other organizations of large dam owners and made
                                                            
1
     A dike is an embankment for controlling or holding back the waters of the sea or a river. Saddle dams
     are typically earthen embankments located some distance upstream of the main dam and form part of a
     reservoir's rim or shoreline.
2
     Our review did not focus on saddle dams, dikes, or impoundments.
Inspection 2009-12651                                                                               Page 1
Office of the Inspector General                                                        Inspection Report


recommendations to improve the program. However, the consultants' report also
states that TVA's Inspection and Instrumentation Program is on a par with those
of other major dam owners and consistent with Federal Guidelines and practices
if the recommendations made are implemented. TVA is taking action to address
the concerns and recommendations identified in the consultants' report.

In 1998, 2001, and 2007, the Office of the Inspector General conducted reviews
relating to Dam Safety's adherence to the FEMA Guidelines. This review was
the result of broad interest surrounding TVA's program for assessing the safety
and condition of TVA dams, taking into consideration the Kingston Fossil Plant
ash impoundment failure.

OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of this review were to determine if TVA's Dam Safety Program
(1) identifies and adequately addresses significant risks, (2) is in compliance with
TVA policies and procedures and applicable laws and regulations, and
(3) encompasses all the aspects of a comprehensive dam safety program. The
scope of our review included key operational aspects of TVA's Dam Safety
Program and the laws, regulations, processes, and procedures governing the
program.

To determine if significant risks have been identified and are adequately being
addressed, we:

      Interviewed members of the TVA Hydro Board of Consultants (HBOC)3 to
       determine the role they play in TVA's risk identification and mitigation and to
       obtain their assessment of TVA's Dam Safety Program.
      Reviewed reports from consultants used by TVA to assess their Dam Safety
       Program and determined if TVA had implemented or plans to implement
       corresponding recommendations.
      Interviewed RO personnel to determine what is being done to identify and
       address risks related to dam safety.
      Interviewed TVA management and performed walkdowns at selected dams to
       determine if risks are being adequately identified and mitigated by Dam
       Safety. Specifically, we selected 11 of TVA's 49 dams for site visits. The
       dams were selected based on TVA-identified risks, Dam Safety projects (in
       addition to their varying geographic locations), hazard classification, and use
       classifications. (See Figure 1 for the list of dams selected for site visit.)




                                                            
3
     The HBOC is a team of three internationally recognized experts in dam engineering used by TVA Dam
     Safety.
Inspection 2009-12651                                                                            Page 2
Office of the Inspector General                                              Inspection Report


Figure 1: Listing of Dams Selected for On-Site Review

 Dam Name River                   State        Ty pe Use            Hazard
                                                                Flood
                      Bear                                      Control,
 Bear Creek           Creek AL                  Earth           Recreation High
 Little Bear          Little Bear                               Flood
 Creek                Creek AL                  Earth           Control High
                      Tennesse                  Concrete/Eart
 Fort Loudoun         e River             TN    h Pow               er         High
                      Caney
 Great Falls          Fork River          TN    Concrete        Power          Significant
                      Tennesse                  Concrete/Eart
 Kentucky             e River             KY    h Pow               er         High
                      Ocoee
 Ocoee #1, 2, 3       River TN                  Concrete        Power          High
                      Tennesse
 Wilson               e River             AL    Concrete        Power          High
                      Tennesse
 Wheeler              e River             AL    Concrete        Power         High
                      Toccoa                                    Power,
 Blue Ridge           River GA                  Earth           Recreation High


   Reviewed selected documentation pertaining to capital and operations and
    maintenance projects to determine if work is being prioritized and conducted.

To determine if TVA's Dam Safety Program is in compliance with TVA policies
and procedures and laws and regulations, we:

   Reviewed (1) TVA policies and procedures, (2) applicable laws and
    regulations, and (3) Federal Guidelines to identify the requirements that TVA
    must adhere to.
   Interviewed Office of the General Counsel to determine what legislation TVA's
    Dam Safety Program is required to comply with.
   Reviewed reports from independent consultants hired by RO that compared
    TVA's Dam Safety Program with the Dam Safety Guidelines to identify any
    noted noncompliances.
   Reviewed documentation maintained by Dam Safety to verify that TVA's Dam
    Safety Program is adhering to the Federal Guidelines.
   Interviewed TVA's RO personnel to gain an understanding of TVA's Dam
    Safety Program.




Inspection 2009-12651                                                                  Page 3
Office of the Inspector General                                         Inspection Report


To determine if TVA has a comprehensive dam safety program, we:

   Contracted Marshall Miller & Associates, Inc., to conduct a peer review of
    TVA's Dam Safety Program. To complete their peer review, Marshall Miller:
     Visited Fort Loudoun Dam, Blue Ridge Dam, and Kentucky Dam and
      interviewed the Hydro Production support managers at each dam.
     Reviewed documentation provided to the OIG team by RO.
     Interviewed key Dam Safety personnel.

This review was conducted in accordance with the "Quality Standards for
Inspections."

FINDINGS AND RECOMMENDATIONS
Our review found that TVA (1) is taking steps to identify and mitigate Dam Safety
risks, (2) is adhering to the Federal Guidelines with a few exceptions, and (3) has
a comprehensive dam safety program. TVA is currently taking strides to improve
its risk management including moving from being reactive to proactive by
mitigating and anticipating risks. However, based on interviews with TVA
personnel, additional steps could be taken at the dam sites that could assist in
identifying and mitigating Dam Safety risks. While TVA is adhering to the
Federal Guidelines with some exceptions, and in Marshall Miller's opinion, has a
fundamentally sound Dam Safety Program, there are opportunities for
improvement in the Inspection Program, Instrumentation Program, Dam Safety
Operation and Maintenance, and Emergency Action Planning. Additionally, there
are several issues that were identified in Inspection Report 2008-12283-02,
Review of Kingston Fossil Plant Ash Spill Root Cause Study and Observations
about Ash Management (Kingston Report) that have also been noted during the
course of this review. As noted in various places in this report, those issues
relate to organization, accountability, and resources.

IDENTIFICATION AND MITIGATION OF RISKS
We found TVA is currently taking strides to improve risk management pertaining
to dam safety. According to TVA's HBOC, the culture is being changed from one
of "reactive to proactive" through the identification, anticipation, and mitigation of
potential Dam Safety risks. TVA's HBOC also stated that it would be very difficult
for something to happen that would not be detected in time to mitigate disaster
with the monitoring TVA has in place. In addition, new analytical techniques are
being implemented at the recommendation of TVA independent consultants that
will enhance the identification and mitigation of risks. However, based on
interviews with TVA plant personnel, clearer lines of responsibility, decreased lag
time from inspection to report, rotation of inspectors, and Dam Safety personnel
presence during project work would enhance identification and mitigation of Dam
Safety risks.

Inspection 2009-12651                                                             Page 4
Office of the Inspector General                                                            Inspection Report


Assessments of Dam Safety's Approach to Risk Management
TVA uses the HBOC as a sounding board for TVA's upcoming and ongoing Dam
Safety projects. TVA selects the members of the HBOC based on the depth and
breadth of their academic and/or professional involvement in the field of dam
engineering and their experience related to current TVA Dam Safety projects and
programs. The HBOC members work with other utilities worldwide bringing that
knowledge and expertise to TVA. The HBOC provides insight into risks and
issues that TVA may not be experienced with, in addition to recommending risk
remediation, operational improvements, and cost-saving options. In discussions
with the OIG team, the HBOC was complimentary of TVA's actions concerning
risk assessment. They commented that TVA is moving from being "reactive to
proactive" by mitigating and anticipating risks. Specifically, the HBOC stated that
TVA has sent employees to observe projects at non-TVA dams to gain
knowledge and ideas that may assist TVA in the future.

The HBOC's overall assessment of TVA's Dam Safety Program was that Dam
Safety appears to be on the right track and has good institutional memory. In
regard to the safety of TVA's dams, the HBOC stated that with the system TVA
has in place, it would be very difficult for something to happen that would not be
detected in time to mitigate disaster. The HBOC noted that TVA has been
monitoring its dams for a very long time that allows them to benchmark and
detect changes.

While the independent review of Dam Safety's Inspection and Instrumentation
Program conducted after the Kingston Ash Spill concluded that TVA's Dam
Safety Program was comparable to other large dam owners, they found that TVA
had no formal (1) Potential Failure Mode Analysis (PFMA) protocol4 and (2) Risk
Analyses being conducted to help prioritize expenditures. However, TVA has
taken steps to address these findings. One PFMA was completed in 2009, and
three are planned for 2010. In addition, TVA has met with the U.S. Army Corps
of Engineers (USACE) and plans to start using the USACE's risk management
tool, which is a spreadsheet that applies defined consequences to defined risks
to help prioritize expenditures.

Dam Safety's Risk Mitigation Activities
TVA has identified potential Dam Safety risks in areas such as leakage, flooding,
and seismic stability and is taking steps to monitor and mitigate these risks.

      Any leakage at a dam is evaluated during periodic Dam Safety inspections,
       and when necessary, it is measured and recorded for trending purposes.




                                                            
4
     A PFMA is an exercise to identify all potential failure modes under various conditions and to assess
     those potential failure modes of enough significance to warrant continued awareness and attention to
     visual observation, monitoring, and remediation as appropriate.
Inspection 2009-12651                                                                                 Page 5
Office of the Inspector General                                                             Inspection Report


      TVA is in the process of reevaluating the Probable Maximum Flood (PMF)5
       for all dams and determining if modifications are required.
      Studies are being conducted to determine the Maximum Design Earthquake
       (MDE)6 for each of TVA's dams.

According to the 2004 RO study, some leakage, or unintended flow, is expected
to occur at all dams either through structural joints, earthen embankments,
reservoir rims, or foundation materials. Any leakage is evaluated during periodic
dam inspections, and a determination is made as to whether the volume, rate of
change, and sediment content (if any) of the leak pose structural concerns.
When necessary, the leakage is periodically measured and recorded so that
trends can be defined. Changes in these trends can indicate that a more
detailed evaluation of the seepage is warranted. TVA has previously
experienced issues with limestone karst7 foundations. Most recently, in 2009
and 2010, projects to remediate leakage were completed at Bear Creek and Little
Bear Creek Dams, respectively.

Figure 2 shows the roller compacted concrete structure that was constructed at
the downstream toe of Bear Creek Dam to block water passage under the dam
that was completed in 2009. TVA is currently monitoring leakage at 17 dams.
However, none of the dams being monitored for leakage require action to be
taken at this time.

Figure 2: Recently Constructed Structure at Bear Creek Dam




                                                            
5
     The PMF is generally accepted as the standard for the safety design of dams where the incremental
     consequences of failure have been determined to be unacceptable. In essence, it is the maximum
     amount of flood control that is risk tolerable.
6
     The MDE is the earthquake that produces the maximum level of ground motion for which a structure is to
     be designed or evaluated.
7
     Karst is an area of limestone terrain characterized by sinks, ravines, and underground streams.
Inspection 2009-12651                                                                                  Page 6
Office of the Inspector General                                                          Inspection Report


A recent update of TVA's river modeling program determined that the maximum
floodwater elevations could be higher than previously calculated if a highly
unlikely, worst-case winter rainfall were to occur in the upper part of the
Tennessee Valley watershed. In 2009, temporary modifications were made to
Cherokee, Fort Loudoun, Watts Bar, and Tellico Dams. There are plans for
permanent modifications to be constructed in the future. To mitigate this
potential risk, the PMFs for all TVA's dams are in the process of being
reevaluated.

Figure 3 shows the interim measures that have been put in place at the Fort
Loudoun Dam including staging of gravel, dirt, and trailers with the necessary
equipment required to keep the floodwaters off the earth embankments in case of
flood conditions.

Figure 3: Interim Measures in Place at Fort Loudoun Dam




In 2003, TVA contracted with an external consultant to conduct a seismic hazard
assessment. This study was completed in 2007 and included both probabilistic
and deterministic analyses as required by FEMA 65 Earthquake Analyses and
Design of Dams (FEMA 65).8 Currently, TVA has contracted a consultant to
gather information related to the population at risk and economies at risk. Based
on this information, TVA will determine the MDE for each dam. Per FEMA 65,
"Dams should be capable of withstanding the Maximum Design Earthquakes
(MDE) without failure resulting in a catastrophic loss of the reservoir, or should
                                                            
8
     These guidelines provide the basic framework for the earthquake design and evaluation of dams.
Inspection 2009-12651                                                                                 Page 7
Office of the Inspector General                                                                Inspection Report


present an acceptably low risk of failure if that is how the relevant agency
approaches decision making."

A project is under way at Blue Ridge Dam to bring the dam up to the seismic
requirements in addition to correcting a penstock bulge9 that occurred during
construction. To make the dam seismically stable, TVA is repairing and
stabilizing the upstream and downstream faces of the dam, as well as stabilizing
the tower on the upstream side of the dam that manages the intake water. This
project began in July 2010. Figure 4 shows the monitoring in place at Blue Ridge
Dam in preparation for upcoming work.

Figure 4: Monitoring Instrumentation at Blue Ridge Dam




Opportunities for Improvement
The OIG team conducted interviews with the Hydro Production managers and
TVA employees at each of the dams in our sample. The employees interviewed
did not identify any additional risks that were not being addressed by Dam
Safety. It was noted during the interviews that projects and issues deemed as
significant receive the required funding. In addition, they generally considered
themselves to have a positive relationship with Dam Safety and felt they could
contact Dam Safety if there were any questions or concerns and they would be
addressed.




                                                            
9
     The penstock partially collapsed in 1931 on initial filling. Recent inspections revealed the loss of
     additional rivets in the bulged area. 
Inspection 2009-12651                                                                                       Page 8
Office of the Inspector General                                       Inspection Report


While we found nothing to indicate that TVA is not adequately mitigating Dam
Safety risks, some concerns were expressed during interviews that should be
considered as improvement opportunities. Specifically:

   The majority of dam personnel interviewed did state that more defined
    organizational roles and responsibilities are needed. Some areas of
    accountability and responsibility were unclear among Facilities Management,
    Dam Safety, and Hydro Production. The responsibilities of each organization
    should be clearly defined and communicated throughout the organization.
   While not a concern at all dams, at two sites the personnel would like to see a
    rotation of inspectors to have a "fresh set of eyes" look at the dams. A
    rotation schedule for dam inspectors should be implemented to ensure that all
    dams are being reviewed by multiple inspectors.
   Personnel at one site noted a concern that the plant level could not track the
    condition of the plant effectively due to the lag time before Dam Safety
    engineers see inspection notes in the work management system. However,
    this concern should be addressed because lag time is now being tracked by
    the RO performance metric tracking the Dam Safety Initial Inspection Report
    completion time. In addition, an e-mail is supposed to be sent to the
    appropriate managers citing deficiencies from the Dam Safety inspections.
   Personnel at one site mentioned they would like to have Dam Safety
    personnel on-site during the completion of projects at the site. The Manager
    of Dam Safety Inspection and Maintenance Engineering feels that since
    staffing has increased, they will be able to be more involved in on-site
    projects.

COMPLIANCE WITH TVA POLICIES AND PROCEDURES AND
APPLICABLE LAWS AND REGULATIONS
Our review found that TVA's policy is to follow the Federal Guidelines for Dam
Safety, although it is not required to under federal law. TVA is adhering to
Federal Guidelines with the exception of certain aspects of the O&M Manuals,
Training and Awareness Program, and Emergency Action Plans.

Public Law 104-303 helps to reduce the risks to life and property from dam failure
in the United States through the establishment and maintenance of an effective
national Dam Safety program to bring together the expertise and resources of the
federal and nonfederal communities in achieving national Dam Safety hazard
reduction. According to Public Law 104-303, "Nothing in this section (including
the amendments made by this section) shall preempt or otherwise affect any
dam safety program of a federal agency other than the FEMA, including any
program that regulates, permits, or licenses any activity affecting a dam."
Therefore, TVA is not required to adhere to the Federal Guidelines by law.
However, TVA's RO Standard Department Procedure 10.8, Emergency


Inspection 2009-12651                                                           Page 9
Office of the Inspector General                                                              Inspection Report


Response Plan,10 states that in an emergency, the Dam Safety Officer is
"responsible for ensuring that the FEMA Federal Guidelines for Dam Safety are
adhered to." In addition, TVA's RO Standard Department Procedure 6.0, Asset
Maintenance and Modification,11 states that the TVA Board has mandated that all
Dam Safety-related work will comply with the Federal Guidelines.

We compared TVA's Dam Safety Program to the key management practices
identified in the Federal Guidelines. The results of our review are provided in
detail below.

Management Practice--Establish a Dam Safety Officer and Appropriate Staff
TVA has established a Dam Safety Officer and a dedicated Dam Safety Group.
The Dam Safety Officer is currently the General Manager, RO Engineering
Support Services. The Dam Safety Group is responsible for ensuring that TVA's
Dam Safety Program meets the Federal Guidelines.

Management Practice--Maintain an Updated Inventory of Dams
TVA maintains an updated inventory of its dams. It is updated every two years
using a program employed by the USACE.

Management Practice--Document Design Criteria and Construction
Activities
For all the dams constructed by TVA, detailed construction documentation is
maintained. Dams that were purchased by TVA have detailed information about
the dams, which has been maintained since their purchase.

Management Practice--Prepare O&M Instructions and Document Activities
Dam-specific O&M Manuals are maintained for each of TVA's 49 dams.
However, FEMA 93 Federal Guidelines for Dam Safety (FEMA 93)12 states, "All
operation and maintenance manuals should be kept current, and records should
be maintained of instructions, inspections, and equipment testing, with copies to
those responsible for design and dam safety inspections." We found that while
TVA does maintain an O&M Manual and information related to each dam in a
Project Performance Report,13 TVA O&M Manuals are not updated on a regular
basis. The manuals the OIG team observed had not been updated for 15 years.
A procedure should be implemented to regularly review and update the O&M
Manuals.


                                                            
10
     RO Standard Department Procedure 10.8, Emergency Response Plan, describes the procedures to be
     used to ensure systematic and coordinated Valley-wide response to different types of emergencies that
     require actions within RO.
11
     RO Standard Department Procedure 6.0 Asset Maintenance and Modification, establishes governing
     rules for a standardized program for maintenance activities associated with the physical assets within the
     responsibility of RO.
12
     These guidelines apply to management practices for Dam Safety of all federal agencies responsible for
     the planning, design, construction, operation, or regulation of dams.
13
     A Project Performance Report is an in-depth summary of the health of the dam.
Inspection 2009-12651                                                                                 Page 10
Office of the Inspector General                                                          Inspection Report


Management Practice--Maintain a Training and Awareness Program
TVA is in the process of implementing a standard department procedure to
establish training and qualification requirements for inspection personnel who
perform inspections of civil features and inspection and test operation of Dam
Safety equipment. The general and intermediate inspections are conducted by
Dam Safety inspectors. Dam Safety inspectors are trained through using
Training Aids for Dam Safety and attending conferences. The monthly
inspections are completed by personnel at the dams. They are trained through
the Dam Safety Awareness Training course, which explains the Dam Safety
Program and the types of deficiencies to look for when inspecting a dam.
According to FEMA 93, the personnel conducting informal reviews "must be
evaluated periodically to assure that they understand the requirements and are
capable of performing them." According to Dam Safety personnel, no periodic
evaluations are performed.

In addition FEMA 93 maintains that the inspection team "should comprise
individuals having appropriate specialized knowledge in structural, mechanical,
electrical, hydraulic, and embankment design; geology; concrete materials; and
construction procedures." According to Dam Safety management, TVA's
inspection teams possess all this knowledge with the exception of a geotechnical
expert. Efforts are ongoing within TVA to acquire an expert in this field.

Management Practice--Prepare and Maintain EAPs for Each Dam
TVA has developed and maintains an EAP for each of the 49 dams in the TVA
system. These plans consist of initial notification procedures, contact
information, emergency classification, and site-specific flooded area information.
TVA updates the EAPs annually, and they are distributed to all internal and
external organizations that would be involved in a TVA Dam Safety event. We
observed that the copies of EAPs in the River Operations Emergency Operations
Center had a revision date of 2005. However, at the dam sites, the hydro
production support managers had the most recent 2009 updated EAPs.

We compared FEMA 64 Emergency Action Planning for Dam Owners (FEMA
64)14 to TVA's EAPs. The following improvements could be made to TVA's
EAPs. According to FEMA 64:

      An EAP should state "when and how a declared emergency will be
       terminated." Our review of the EAPs in our sample found nothing stating
       when and how a declared emergency will be terminated. The EAPs should
       be revised to include the conditions for terminating an emergency.
      "The dam owner should specify in the EAP the designated EAP coordinator
       who will be responsible for EAP-related activities." We noted that the EAPs
       sampled did not identify the designated EAP coordinator. The EAPs should
       clearly designate the EAP coordinator.
                                                            
14
     The purpose of these guidelines is to encourage thorough and consistent emergency action planning for
     dams to help save lives and reduce property damage. The guidelines cover basic considerations for
     preparing an EAP, the basic elements of an EAP, and the suggested format for an EAP.
Inspection 2009-12651                                                                             Page 11
Office of the Inspector General                                     Inspection Report


   The "EAP should describe any instrumentation for monitoring the behavior of
    unattended dams, and explain how warning systems should be activated."
    Our review of sampled EAPs and discussion with Dam Safety personnel
    found that this information is not being kept in the EAPs. The EAPs should
    be revised to include information related to the instrumentation and warning
    systems for unmanned dams.

Management Practice--Establish a Program of Periodic Inspections and
Evaluation of Dams
The general and intermediate inspections are being completed in the time frame
outlined in the Federal Guidelines. TVA completes their general inspections on a
5-year rotation and their intermediate inspections on a 15-month rotation to
account for the change of seasons. The civil inspections were completed based
on checklists outlined in the Federal Guidelines. However, the
mechanical/electrical checklists have not been implemented at this time.

Management Practice--Monitor and Evaluate the Performance of Each Dam
and Appurtenant Structure and Provide Remedial Construction as
Necessary
TVA Dam Safety was monitoring and evaluating the performance of each dam
through the assignment of Responsible Engineers (REs) and the completion of
Project Performance Reports. TVA Dam Safety is in the process of re-
designating a RE for each of the dams. REs have been used before by Dam
Safety, however, the program lost momentum with staff reductions in recent
years. The RE is to serve as the point of contact on all dam-related issues. The
intent is to have someone familiar with all aspects of the dam, including past,
present, and future information. The RE is responsible for information including
the historical information on the dam, instrumentation data, and inspection
reports. The RE would also be responsible for monitoring trends in the
instrumentation data to identify potential issues and reviewing Project
Performance Reports. Project Performance Reports are completed every
five years for all high hazard dams and dams with issues. A Project Performance
Report is an in-depth summary of the health of the dam. The report includes the
history, foundation issues, instrumentation history, current evaluation, and any
other pertinent information that relates to the dam. The Project Performance
Reports were initially completed by contractors.

COMPREHENSIVE DAM SAFETY PROGRAM
The TVA OIG contracted with Marshall Miller to conduct a peer review of TVA's
Dam Safety Program. Based on their review, it appears that, while TVA has a
comprehensive dam safety program in place, there are ways the program could
be strengthened. During its engagement, Marshall Miller conducted interviews
with various representatives of the OIG and TVA, among others, and was
provided access to various documents including EAPs, engineering design
drawings, technical specifications, copies of expert reports prepared by third


Inspection 2009-12651                                                       Page 12
Office of the Inspector General                                       Inspection Report


parties retained by the TVA, and other pertinent documentation that was
examined during the peer review.

In summary, Marshall Miller identified TVA's program as being thorough,
fundamentally sound, and comparable to similar organizations that own and
maintain and, with the proposed reorganization of the Dam Safety Group,
anticipates that this action will further enhance program operations. If not
already planned as part of the current reorganization, the peer review team
believes the program would be further strengthened by the Instrumentation
Group and the Emergency Preparedness function being incorporated into the
Dam Safety Group.

In addition, Marshall Miller endorses the Dam Safety Group's implementation of
the RE concept. The REs will be responsible for three to four dams and should
be familiar with everything that goes on at these dams. The peer review team
understands they will (1) be advocates for addressing any needs or shortcomings
associated with these facilities, (2) be accountable for Dam Safety O&M issues,
and (3) facilitate needed funding for such issues for the dams for which they are
responsible. While, in Marshall Miller's opinion, the Dam Safety Program is
fundamentally sound, there are areas where improvements could be made
including the Inspection Program, Instrumentation Program, Dam Safety O&M,
and Emergency Action Planning.

Inspection Program
To assess TVA's Dam Safety Inspection Program, Marshall Miller visited three
dams (Fort Loudoun, Blue Ridge, and Kentucky) and interviewed site personnel
and the Manager of Dam Safety Inspection and Maintenance Engineering. Their
review noted the following aspects of TVA's Dam Safety Inspection Program:

   The Manager of Dam Safety Inspection and Maintenance Engineering is
    knowledgeable of his functions and responsibilities.
   The Dam Safety Group is currently undergoing a general reorganization and
    will perform an independent governance role. The reorganized group will be
    part of RO. Having a strong, independent Dam Safety Organization within
    TVA is a very positive development and should improve TVA safety practices.
   Serious deficiencies identified during inspections typically get a prompt
    response.




Inspection 2009-12651                                                           Page 13
Office of the Inspector General                                        Inspection Report


Marshall Miller presented the following observations and recommended actions
related to TVA's Dam Safety Inspection Program:

   The Manager of Dam Safety Inspection and Maintenance Engineering
    currently has nine staff members. Marshall Miller determined this to be
    insufficient staff for performing the current schedule of inspections for TVA's
    49 dams. It is the peer review team's understanding that reorganization is
    currently under way and that this reorganization will expand the Dam Safety
    Group staff. The peer review team endorses such a reorganization.
   Plant personnel at some of the facilities visited appeared to have a limited
    knowledge of Dam Safety's inspection procedures, and none of these
    personnel appeared thoroughly familiar with these procedures or with the
    scope and findings of Dam Safety's inspection activities.
   The scope of Dam Safety Awareness training should be expanded to include
    a description of Dam Safety Group activities, instrumentation monitoring and
    data review, and other Dam Safety issues. Site personnel should be made
    aware of the importance of inspections and instrumentation monitoring.
    Marshall Miller recommends the preparation of a comprehensive PowerPoint
    presentation including actual examples to be used as part of the Dam Safety
    Awareness training. The training should also provide an outline of the new
    organization and the way site personnel interact with Dam Safety personnel.
   The peer review team endorses the implementation of the RE concept for
    groups of dams, and it encourages interaction by the REs with the
    reorganized Dam Safety Group.

Instrumentation Program
To assess TVA's Dam Safety Inspection Program, Marshall Miller visited three
dams and interviewed site personnel and the Manager of RO Data Systems and
Instrumentation. Marshall Miller's review noted the following aspects of TVA's
Dam Safety Instrumentation Program:

   The Manager of RO Data Systems and Instrumentation (DS&I) is
    knowledgeable of her functions and responsibilities.
   Technologically outmoded equipment is being replaced.
   DS&I is planning to automate more instrumentation.

Marshall Miller presented the following observations and recommended actions
related to TVA's Instrumentation Program:

   Hydro production support managers are not very familiar with the scope,
    performance, or measurements of instrumentation at their sites and referred
    the peer review team to the DS&I Group. Marshall Miller's discussions with
    hydro production support managers and the Manager of RO DS&I indicated
    that increased interaction and cooperation between plant/site personnel and
    the DS&I Group would benefit both parties.
Inspection 2009-12651                                                          Page 14
Office of the Inspector General                                         Inspection Report


   Currently DS&I has six technicians to man six field offices but would prefer
    two technicians in each field office for personnel safety and workload
    management reasons, given the remoteness and/or ruggedness of some of
    the sites and the travel distances between the sites overseen by each field
    office. The mobile communications from some sites is poor to nonexistent
    with typical equipment, which presents added impetus for a teaming approach
    to oversight responsibilities at more remote facilities that are not staffed daily.
    Marshall Miller assumes that the DS&I Group will be part of the reorganized
    Dam Safety Group and that DS&I will gain additional staff as needed. The
    peer review team endorses such reorganization, especially with regard to
    staffing each field office with at least two technicians for personnel safety,
    workload management, and emergency response reasons.
   It appears that the DS&I Group is underfunded. Failed instrumentation
    replacement and the upgrading of equipment are currently completed when
    funds are available. The peer review team recommends that their budget be
    increased sufficiently to, for example, (1) support more prompt replacement of
    failed instruments and installation of additional instrumentation where
    necessary, (2) transition to automated data acquisition where reasonably
    justified and where Dam Safety issues warrant closer monitoring, and
    (3) enhance mobile communications for field technicians.

O&M Procedures
To assess TVA's Dam Safety O&M procedures, Marshall Miller visited three
dams and interviewed site personnel. Marshall Miller's review noted the following
aspects of TVA's O&M procedures:

   All the dams visited have auxiliary power systems in the event of electrical
    power failure.
   Marshall Miller was informed during visits to the three sites that each spillway
    gate is raised under normal and auxiliary power on an annual basis or
    concurrent with Dam Safety 15-month inspections. Marshall Miller was
    informed that this practice has recently been instated.
   All the dams visited had warning signs immediately downstream of the dam,
    as well as audible warning systems.
   Special instructions for inspections and/or checking equipment are issued
    when severe natural phenomena occur. Such instructions had been issued to
    the Fort Loudoun Dam hydro production support manager on the day that the
    peer review team visited due to a magnitude 3.3 earthquake that occurred in
    the region the night before.
   Some facilities have materials prestaged so that they can be deployed in the
    event of an emergency. Sandbags were staged at Fort Loudoun Dam.




Inspection 2009-12651                                                           Page 15
Office of the Inspector General                                         Inspection Report


Marshall Miller presented the following observations and recommended actions
related to TVA's O&M procedures:

   Based on interviews with site personnel, maintenance activities appear to be
    limited somewhat by the availability of personnel. The Dam Safety O&M
    function of TVA should be staffed and funded such that individual facility
    maintenance issues are handled promptly.
   Security problems have generally been minor, mostly involving petty
    vandalism. One instance was noted where copper wire was stolen. Blue
    Ridge Dam is typically unmanned. It is visited by a maintenance crew for a
    few hours twice a week. Marshall Miller recommends that TVA consider
    installation of remote video systems for facilities that are unmanned for long
    periods of time and for other critical dam features that could be disabled by
    sabotage. For mostly unmanned dams such as Blue Ridge Dam, such a
    system could potentially provide an early warning of serious site problems.

EAPs
To assess TVA's Dam Safety emergency action planning, Marshall Miller visited
three dams, interviewed site personnel and the Emergency Preparedness
Specialist, and reviewed documentation such as the EAPs for selected dams.
The peer review team made the following observations concerning the
development/content and the integration of the EAPs:

EAP Development/Content
 TVA EAPs comprise a generic front portion plus some site-specific
  appendices, including inundation maps. EAPs should be less generic and
  more tailored to individual sites.
   The flow chart provided in the EAP indicates the decision-making process for
    determining if an emergency exists, but does not define fully the notification
    chain. The decision process is relatively complex with many TVA groups
    interacting. The TVA Dam Safety Manager, who is responsible for directing
    emergency activities, is not involved in the initial decision as to whether an
    emergency is occurring. In addition, the indicated role of site hydro
    production support managers/personnel is only to notify TVA senior staff that
    a potential emergency situation exists. The decision-making chart in the
    generic portion of the EAP should be updated to include the Dam Safety
    Manager in the decision-making process and should better define the
    response of the hydro production support manager relative to implementing
    emergency response activities.
   A generic telephone list of EAP contacts is provided in the EAP. Emergency
    response individuals to be contacted for a specific site are not clearly
    indicated. A separate, facility-specific notification chart should be provided in
    the EAP for each dam.
   Reconnaissance of downstream inundation areas should be performed at
    least every five years to determine if there are substantive changes that could

Inspection 2009-12651                                                           Page 16
Office of the Inspector General                                        Inspection Report


    affect the inundation analyses or warrant changes in the emergency response
    procedures (e.g., notification or evacuation of additional places or persons).
   The dam break simulation and inundation analyses for each dam should be
    reviewed periodically to determine that the basic inputs and data on which the
    analyses are based are still current and that the analytical methodologies are
    consistent with current practice.
   The EAPs provide no information relative to traffic control points, evacuation
    routes, or emergency reception and treatment centers. These functions are
    left to local authorities. TVA handles emergency response related to TVA
    property and supports the response actions of local authorities as requested.
    TVA should consider adding information such as traffic control points,
    evacuation routes, and emergency reception and treatment areas to
    inundation maps, or should verify that local emergency responders and
    agencies are prepared to handle these responsibilities in the event of EAP
    implementation.

EAP Integration
 The new Dam Safety Organization should strongly encourage all involved
  parties to become knowledgeable relative to EAP content and individual
  responsibilities in an emergency. It was observed by the peer review team
  that the familiarity of site personnel with EAP contents varied considerably.
   EAP tabletop and functional exercises are conducted at times for some
    facilities when deemed warranted by TVA, but the protocol for scheduling
    such exercises is not clearly defined. Marshall Miller understands that it is
    TVA's intent to conduct tabletop exercises for all high hazard dams, but some
    site hydro production support managers have not participated in EAP
    exercises, possibly due to reorganizations. Functional exercises are
    conducted for the most critical facilities in special circumstances but
    apparently are not scheduled regularly for all facilities at the present time.
    Tabletop exercises should be conducted concurrent with intermediate
    inspections (approximately every 15 months), and functional exercises should
    be conducted every five years for each high hazard dam in accordance with
    FEMA 64.
   There is insufficient staff support to prepare and annually maintain EAPs for
    49 dams. Staff should be expanded consistent with the increased scope of
    activities and responsibilities. The emergency preparedness function should
    be more fully integrated into the overall TVA Dam Safety Program.

SYSTEMIC ISSUES FOUND IN OIG REVIEWS
While TVA's Dam Safety Program is taking strides to move from a reactive to a
proactive culture, there are several issues that were identified in the Kingston
Report that have also been noted during the course of this review. As noted in
various places in this report, those issues relate to organization, accountability,
and resources.
Inspection 2009-12651                                                          Page 17
Office of the Inspector General                                      Inspection Report


In the Kingston Report, it was noted that fragmented organizational
responsibilities created silos that contributed to inadequate communication and
that without policies and procedures it is unclear who is responsible for specific
tasks. Similarly, in this review, there are areas of accountability and
responsibility that are unclear. Maintenance was also noted as a "big problem"
during the Kingston root cause analysis. Likewise, during this review,
observations were made that staffing and funding should be increased in this
area to promptly handle issues that arise at the plants and that the O&M Manuals
for the plant are not updated regularly. Since these are all issues that negatively
impacted TVA's management of the ash impoundments, the potential impact and
risk of the parallel issues identified in this review of the Dam Safety Program
should be thoroughly examined as part of TVA's effort to change the company's
culture.




Inspection 2009-12651                                                        Page 18
Office of the Inspector General                                        Inspection Report


SUMMARY OF OIG AND MARSHALL MILLER
RECOMMENDATIONS
In summary, the Senior Vice President, RO, should implement the following
recommendations regarding the Inspection Program, Instrumentation Program,
O&M Program, and EAPs.

Inspection Program
 If not already planned as part of the current reorganization, incorporate the
   Instrumentation Group and the Emergency Preparedness function into the
   Dam Safety Group.
   Implement a process whereby hydro production support managers are
    informed of Dam Safety Group activities that pertain to their facility and the
    results of inspections.
   Expand the scope of Dam Safety Awareness training to include a description
    of Dam Safety Group activities, instrumentation monitoring and data review,
    and other Dam Safety issues. Site personnel should also be made aware of
    the importance of inspections and instrumentation monitoring.
   Implement a procedure that requires periodic evaluation of site personnel
    conducting monthly inspections.
   Implement a dam inspector rotation schedule to make certain all dams are
    being reviewed by multiple inspectors.

Instrumentation Program
 Determine and document the appropriate staffing level for DS&I, taking into
   consideration needed support of personal safety, workload management, and
   emergency response.
   Increase the DS&I budget sufficiently to support (1) more prompt replacement
    of failed instruments and installation of additional instrumentation where
    necessary, (2) transition to automated data acquisition where reasonably
    justified and where Dam Safety issues warrant closer monitoring, and
    (3) enhanced mobile communications for field technicians.
   Implement actions to strengthen the interaction and cooperation between
    plant/site personnel and the DS&I Group.

O&M Program
 Provide the necessary staffing and funding so that individual facility
  maintenance issues can be handled promptly.
   Consider installation of remote video systems for facilities that are unmanned
    for long periods of time and for other critical dam features that could be
    disabled by sabotage.
 Implement a procedure requiring regular review and perform updates as
    necessary of the O&M Manuals.
Inspection 2009-12651                                                          Page 19
Office of the Inspector General                                        Inspection Report


EAP
 Expand the staff of the Emergency Preparedness function consistent with its
  recommended increased scope of activities and responsibilities.
   Integrate Emergency Preparedness more fully into the overall TVA Dam
    Safety Program.
     Revise EAPs to be less generic and more tailored to individual sites.
      Specifically, each EAP should indicate what specific individuals/agencies
      necessary in emergency response are to be contacted in the event of an
      emergency and in what order. A facility-specific flow chart would be
      helpful in this regard.
     Better define the role of the hydro production support manager/site
      personnel in emergency response.
   Require (1) tabletop exercises be conducted concurrent with intermediate
    inspections (approximately every 15 months) and (2) functional exercises be
    conducted every five years for each high-hazard dam in accordance with
    FEMA 64.
   Update the decision-making chart in the generic portion of the EAP and
    include the Dam Safety Manager in the decision-making process relative to
    implementing emergency response activities.
   Periodically review the dam break simulation and inundation analyses for
    each dam to determine that the basic inputs and data on which the analyses
    are based are still current and that the analytical methodologies are
    consistent with current practice.
   Add information such as traffic control points, evacuation routes, and
    emergency reception and treatment areas to inundation maps, and verify that
    local emergency responders and agencies are prepared to handle these
    responsibilities in the event of an EAP implementation.
   Perform reconnaissance of downstream inundation areas at least every
    five years to determine if there are any substantive changes that could affect
    the inundation analyses or warrant changes in the emergency response
    procedures (e.g., notification or evacuation of additional places or persons).
   Provide benchmark levels and conditions for defining the initiation or
    termination of an emergency situation in EAPs.
   Revise EAPs to include (1) the conditions for terminating an emergency,
    (2) the designated EAP Coordinator, and (3) information related to the
    instrumentation and warning systems for unmanned dams.

Systemic Issues
 The potential impact and risk of the parallel issues identified in this report
  should be thoroughly examined as part of TVA's effort to change the
  company's culture.


Inspection 2009-12651                                                          Page 20
Office of the Inspector General                                   Inspection Report


Management's Response – The Senior Vice President of River Operations in
conjunction with the Dam Safety Officer provided comments on a draft of this
report and agreed with our recommendations and plan to take corrective actions.
Management's complete substantive comments are included in Appendix B of
this report. TVA management also provided some administrative and clarifying
comments for our consideration. These technical comments were reviewed and
incorporated as appropriate.

Auditor's Response – We concur with TVA management's planned and
completed actions to address our recommendations.




Inspection 2009-12651                                                     Page 21
APPENDIX A
 Page 1 of 1
